FEDERAL PRISON INDUSTRIES, INC.

   ANNUAL SPECIAL-PURPOSE

     FINANCIAL STATEMENTS

       FISCAL YEAR 2012

         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


            Audit Report 13-04

             December 2012

           FEDERAL PRISON INDUSTRIES, INC.

              ANNUAL SPECIAL-PURPOSE

               FINANCIAL STATEMENTS

                  FISCAL YEAR 2012


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Special-Purpose Financial
Statements of the Federal Prison Industries, Inc. (FPI) for the fiscal years
(FY) ended September 30, 2012, and September 30, 2011. Under the
direction of the Office of the Inspector General (OIG), Cotton & Company LLP
performed the FPI’s audit in accordance with auditing standards generally
accepted in the United States of America. The audit resulted in an
unqualified opinion on the FY 2012 special-purpose financial statements. An
unqualified opinion means that the financial statements present fairly, in all
material respects, the financial position and the results of the entity’s
operations in conformity with U.S. generally accepted accounting principles
(GAAP). For FY 2011, the FPI also received an unqualified opinion on its
special-purpose financial statements (OIG Report No. 12-07).

       FPI’s special-purpose financial statements were prepared by cross-
walking their general-purpose financial statements, prepared in conformity
with GAAP standards issued by the Financial Accounting Standards Board, to
reflect the United States General Ledger account structure as established by
the Department of Treasury Financial Management Service. Their purpose is
to assist the Department of Justice in preparing the Department’s
consolidated financial statements, by reclassifying FPI’s general-purpose
financial statements into a standard format that will be consolidated with the
Department’s other reporting entities.

      Cotton & Company LLP also issued reports on internal control over
financial reporting and on compliance and other matters. For FY 2012, the
auditors did not identify any significant deficiencies in the Independent
Auditors’ Report on Internal Control over Financial Reporting.

      No instances of non-compliance or other matters that are required to
be reported under Government Auditing Standards were identified during the
audit in the FY 2012 Independent Auditors’ Report on Compliance and Other
Matters. Additionally, Cotton & Company LLP’s tests disclosed no instances
in which the FPI’s financial management systems did not substantially
comply with the Federal Financial Management Improvement Act of 1996.




                                     -i-
      The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with Government
Auditing Standards, was not intended to enable us to express, and we do not
express, an opinion on the FPI’s special-purpose financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether the FPI’s financial management systems substantially complied with
the Federal Financial Management Improvement Act of 1996, or conclusions
on compliance with laws and regulations. Cotton & Company LLP is
responsible for the attached auditors’ reports dated November 5, 2012, and
the conclusions expressed in the reports. However, our review disclosed no
instances where Cotton & Company LLP did not comply, in all material
respects, with auditing standards generally accepted in the United States of
America.




                                    -ii-
